Before the Committee on Environment and Public Works
Subcommittee on Transportation Safety, Infrastructure Security,
and Water Quality
United States Senate
For Release on Delivery
Expected at
10:00 a.m. EDT
                          Effectiveness of Federal
Thursday
October 25, 2007          Drunk Driving Programs
CC-2008-013




                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Lautenberg, Ranking Member Vitter, and Members of the
Subcommittee:

Thank you for the opportunity to testify today on the effectiveness of Federal
drunk driving programs. We are pleased to discuss our past and ongoing work in
this important area. We recognize the Chairman’s long-standing role in passing
significant legislation designed to reduce alcohol-impaired crashes and lessen the
emotional toll and significant costs these tragic deaths cause to the victim’s
families and the nation as a whole. Our work has focused on ensuring the
effective implementation of these laws—work that we believe complements the
efforts of the Committee and of the other witnesses here today.

The Department’s efforts to curb drunk driving are a key component in its overall
work to reduce highway deaths. In 2006, over 42,500 highway traffic deaths
occurred in the United States—the 17,602 alcohol-related highway traffic deaths
accounted for about 41 percent of those reported fatalities. The number of
alcohol-related fatalities essentially remained unchanged from the 17,590 alcohol-
related fatalities in 2005. (A detailed breakout on alcohol-related fatalities by state
through 2006 is in the Appendix to this statement.)

In addition to reducing the overall number of highway fatalities, a reduction in
alcohol-related crashes would yield significant monetary savings, as the National
Highway Traffic Safety Administration (NHTSA) estimates that these crashes cost
the nation over $100 billion annually. Figure 1 shows traffic fatality trends for all
traffic deaths and for alcohol-related fatalities from 2000 through 2006.

                                           Figure 1: Traffic Fatality Trends 2000-2006
            Fatalities

                                                              43,005            42,884            42,836            43,510            42,642
              45,000     41,945            42,196


              40,000


              35,000


              30,000


              25,000


                                  17,381             17,400            17,525            17,105            16,918            17,590            17,602
              20,000


              15,000


              10,000


               5,000


                  0
                         2000               2001               2002              2003              2004              2005              2006



          Source:                                  Traffic Fatalities            Alcohol-Related Fatalities
          NHTSA Data




                                                                                                                                                        1
Recognizing the seriousness of this problem, the Administration and Congress
have provided significant resources to counter alcohol-impaired driving.

      • We estimate that appropriations authorized by the 1998 Transportation
        Equity Act for the 21st Century (TEA-21) will result in states’ expending
        $1.1 billion in Federal resources provided through grants and fund transfers
        for alcohol-impaired driving programs.

      • Further significant resources were authorized in August 2005 by the Safe,
        Accountable, Flexible, Efficient Transportation Equity Act: A Legacy for
        Users (SAFETEA-LU). Most notably, SAFETEA-LU increased funding
        for the grant program dedicated solely to reducing alcohol-impaired driving
        to $555 million and also increased funding for grants that are not dedicated
        solely to reducing alcohol-impaired driving but which can be used, in part,
        for these efforts.

Ensuring the effective use of this funding requires good laws, well-run state traffic
safety programs, and effective leadership from NHTSA. We realize that impaired
driving is a complex problem, with no simple solution. Accordingly, our recent 1
and ongoing work focused on providing NHTSA and the states with better tools
(such as improved performance measures) with which to oversee and implement
safety programs aimed at impaired driving.             We believe that prompt
implementation of our recommendations by NHTSA and its state partners will
help ensure that key strategies for countering alcohol-impaired driving are more
effectively carried out.

My statement today concentrates on three areas:

First, key strategies identified for countering alcohol-impaired driving. Our
work found significant agreement across state and Federal jurisdictions on what
strategies are most promising. State and Federal officials identified sustained
enforcement of existing laws and effective prosecution and full application of
available sanctions as key strategies of a successful program for countering
alcohol-impaired driving. States identified a number of best practices for carrying
out these strategies, including using fines to support enforcement efforts and
streamlining the grant process for local communities. On the other hand, states
identified individual challenges with fully implementing these strategies, such as
lengthy arrest procedures and state-specific restrictions on sobriety checkpoints.
NHTSA has published and provided to the states guidelines on carrying out key


1
    OIG Report Number MH-2007-036, “Audit of the National Highway Traffic Safety Administration’s Alcohol-
    Impaired Driving Traffic Safety Program,” March 5, 2007. OIG reports and testimonies can be found on our
    website: www.oig.dot.gov.




                                                                                                          2
strategies for countering impaired driving; but better tools are needed to more
effectively implement these strategies.

Second, effectively implementing key strategies with better performance
measures. NHTSA could better measure the effectiveness of key strategies if
states included in their annual plans and reports more meaningful performance
measures. For example, state officials and NHTSA agreed on the use of sustained
enforcement—a strategy involving regular enforcement events, such as sobriety
checkpoints or saturation patrols in high-risk areas. However, state plans and
reports did not always detail the measures and data needed to assess the
implementation of this strategy. As a result, the degree of progress, or lack of
progress, this key strategy was having on the state’s drunk-driving problem could
not be determined.

Third, specific actions NHTSA needs to take, in concert with the states, to
improve performance measures. Federal regulations place responsibility on
each state to develop performance measures that are tailored to its specific safety
challenges. Thus, NHTSA cannot mandate those performance measures.
However, NHTSA can exercise its leadership with states and other key
stakeholders, such as the Governors Highway Safety Association, to improve
performance measures for alcohol-impaired driving and other traffic safety areas.

As a result of our audit work regarding alcohol-impaired driving, NHTSA has
agreed to take a number of specific actions. These include working with the states
to develop improved performance measures that communicate the degree to which
key strategies are being implemented. NHTSA also agreed to encourage states to
use this guidance; and it has committed to overseeing the degree to which these
measures are adopted and used. Our ongoing work also shows the potential for
improving performance measures for all traffic safety programs that NHTSA is
responsible for, such as improving motorcycle safety.

We believe that the states and NHTSA’s actions, if carried out, would provide
states with better tools to judge their performance and would allow NHTSA to
make valid comparisons across states. These actions would also enhance public
accountability for programs to counter alcohol-impaired driving and other traffic
safety problems by providing stakeholders with the information on the degree to
which states are carrying out key strategies as they expend resources provided by
Congress.

The balance of my statement provides further details on these three areas.




                                                                                 3
Key Strategies Identified for Countering Alcohol-Impaired
Driving
Our March 2007 audit reported on 10 state 2 programs implemented to counter
alcohol-impaired driving under the Transportation Equity Act for the 21st Century
(fiscal years 1998 through 2005). Our work did not assess the impact that laws or
sanctions had on the states. Rather, we concentrated on what the states had done
to implement their programs.

State officials attributed the success of their alcohol-impaired driving programs to
a number of factors, but two key strategies emerged as prevalent: (1) sustained
enforcement of laws and (2) effective prosecution with full application of
available sanctions. Other prevalent strategies we identified addressed educational
and medical aspects.

A sustained enforcement strategy focuses on high police visibility through sobriety
checkpoints or saturation patrols 3 and media efforts to raise public awareness. We
were not able to make valid comparisons across states on the implementation of
this strategy because the performance data were not available. However, we did
note an array of best practices for achieving a sustained enforcement strategy in all
states. For example, enforcement programs were provided steady funding, local
community needs were addressed, and arrest procedures were streamlined. To
illustrate this, presented in table 1 are examples of best practices reported in five
states with low alcohol-fatality rates visited during our review.




2
     California, Connecticut, Ohio, Illinois, Missouri, New Jersey, New Mexico, New York, Texas, and South Carolina
     were selected for review based on 2003 data.
3
    Saturation patrols are coordinated law enforcement efforts in locations known to have high concentrations of alcohol-
    related arrests, crashes, injuries, or fatalities.


                                                                                                                       4
Table 1. Best Practices Reported for Generating Sustained Enforcement in
                    Five States With Low Fatality Rates

 9   NY* encouraged participation by directing $20 million yearly in alcohol-impaired driving fines and
     penalties back to local communities for use on impaired driving enforcement and related equipment.
     NJ* also directed a portion of fines and penalties to local communities.
 9   NY and OH* established traffic-safety organizations to support local efforts throughout the state and
     improve communication:
            - NY’s STOP DWI program.
            - OH’s “Safe Communities” program.
 9   NY and NJ state police performed numerous alcohol-impaired driving enforcement activities in areas
     lacking local police resources.
 9   CT* state police used “flexible” enforcement to target risk areas in conjunction with local enforcement
     or on their own.
 9   CA,* CT, NJ, NY, and OH used various data other than fatalities to target enforcement, such as
     increased impaired driving citations or traffic crashes, blood alcohol content (BAC) levels, or citizen
     complaints.
 9   CA, NJ, NY, and OH provided grant information and guidance on-line to assist local communities in
     applying for grants.
 9   CA developed streamlined grant applications for routine high visibility enforcement grants.
 9   CA and NY required reports on county performance establishing greater accountability.
 9   CA used task forces to pool resources for impaired-driving issues.
 9   NY, CT, and CA directed the largest portion of their TEA-21 grant funding toward impaired driving.
 9   CT and NY used standing statewide committees to address traffic safety issues.
 9   NY and OH used traffic safety-related committees or boards at local levels.
 9 NY, CA, and NJ used a regional approach or regional safety zones to monitor local activities.
 9 CT deployed a mobile BAC and impaired driving processing vehicle.
 *NY=New York, OH=Ohio, NJ=New Jersey, CT=Connecticut, CA=California.
 Source: OIG analysis of information from the five low-fatality rate states reviewed.


Our work also highlighted the fact that more needs to be done to improve the use
of a sustained enforcement strategy. As demonstrated in table 2, states we
reviewed reported challenges in carrying out the strategy. Specifically, some
states reported their inability to fund all requests for police patrols, which either
produced gaps in enforcement or decreased the states’ ability to target areas with a
higher incidence of alcohol-impaired driving. Some states also noted lengthy
arrest procedures that increased the cost of making arrests, decreased the number
of offenders arrested during peak alcohol-impaired driving periods, and acted as a
disincentive for police to make arrests.




                                                                                                               5
        Table 2. Challenges Reported in Generating Sustained Enforcement

    9    Evidentiary requirements of alcohol-impaired driving arrests tied up police officers during high-risk
         impaired driving periods.
    9    State budget cuts or resource availability limited traffic safety funding choices.
    9    Eligible local communities did not apply for grants.
    9    State police were not available to support alcohol-impaired driving programs due to competing
         priorities. A high concentration of rural roads or out-of-state drivers made it harder to enforce
         impaired driving laws.
    9    State highway safety programs were able to fund only a limited number of grant requests.
    9    It was difficult to fund high-visibility enforcement when needed to coincide with high-risk driving
         periods.
    9    Police were unable to perform sobriety checkpoints due to legal restrictions.
    9    State police had jurisdiction limitations, such as the inability to operate within local communities.
    9    State and local police forces were understaffed.
    9    Organizational conflicts or the political climate limited program implementation.
    9    Insufficient resources were available to routinely use task forces.
    9    Safety officials were prohibited by state law from lobbying for legislative changes.
    9    Officials had difficulties getting the type of data needed to better plan and run programs.
    9    There were too many or unclear national priorities or recommended approaches to choose from.
    Source: OIG analysis of information from all states reviewed.



In the other key strategy, ensuring that offenders were convicted and sanctions
were applied, 4 all states we reviewed reported challenges. Some officials
perceived that ineffective prosecution and the states’ failure to apply sanctions
against those convicted of alcohol-impaired driving were weakening deterrent
effects. For example:

        • A safety official expressed concern that judges imposed court supervision
          against guilty parties instead of fines or penalties.

        • Officials reported difficulty in preventing individuals from driving with a
          revoked or suspended license and in identifying repeat offenders.

To address these challenges, some states trained prosecutors and educated judges
regarding applicable laws; tried cases in courts specializing in alcohol-impaired
driving; and established a prosecutor liaison responsible for addressing questions
on the enforcement strategy from prosecutors throughout the state.




4
     According to NHTSA, one aspect of effective prosecution depends on the involvement of well-trained police officers
     and effective prosecutors. Another aspect is the application of sanctions as determined by an adjudicating official.


                                                                                                                       6
The states we reviewed also applied educational and medical strategies. 5
However, in contrast to the key strategies of sustained enforcement of laws and
effective prosecution with full application of sanctions, the states reported on these
strategies less frequently. In the area of educational initiatives, each state provided
some form of educational program on alcohol abuse at elementary schools,
secondary schools, and colleges.

The medium through which schools implemented the strategy varied not only by
state, but also by schools in a particular state. For example, states provided
education material in public forums and in schools; used police officers to make
presentations to elementary and secondary school students; held mock alcohol-
impaired driving trials at schools or had students witness actual court proceedings;
had convicted offenders, victims of alcohol crashes, or surviving family members
of crash victims address students; and conducted information sessions on college
campuses.

Finally, our audit noted that officials in all states reviewed reported that the
resources provided under TEA-21 had benefited their efforts. States used this
money on activities such as providing overtime pay for police to carry out
enforcement efforts.

Effectively Implementing Key Strategies With Better
Performance Measures
In 2006, the overall rate of highway fatalities per 100 million vehicle miles
traveled declined slightly to 1.42, while the fatality rate for alcohol-related crashes
with the highest blood alcohol concentration (.08 or above) remained flat. The
Department’s goal is to reach an overall highway fatality rate of 1.0 by 2011. As
shown in figure 2, the Department needs to move quickly and effectively if it is to
reach its goal by 2011. No appreciable improvement in reaching the Department’s
goal of reducing overall fatalities can occur unless alcohol-related fatalities also
drop.




5
    According to NHTSA, medical strategies include medical screening, which consists of a primary or emergency room
    physician conducting short interviews with patients to screen for alcohol problems and to discuss the adverse effects
    of alcohol abuse and possible treatments. One state reported that it was actively exploring the implementation of
    medical screening in emergency rooms. Additional medical strategies advocated by NHTSA included offender
    treatment and rehabilitation.


                                                                                                                       7
       Figure 2: Overall Highway Fatality Rates Will Need To Improve Faster than
                      Projected To Meet the Target Rate by 2011
    Fatality Rate
    2.00

           1.51      1.51     1.48       1.44       1.46     1.42   1.41     1.39   1.38      1.36    1.34
    1.50

                                                                    1.34     1.25
    1.00                                                                             1.17     1.08
                                                                                                       1.00

    0.50
                            Actual Fatality Rate            Projected Rate          Path to Target

    0.00
       2001       2002      2003      2004       2005      2006     2007     2008   2009     2010      2011
                                                           Year
Source: Actual fatality rates are from NHTSA’s 2005 Transportation Safety Facts and 2006 Annual Assessment
Report. Projected rates for 2007 through 2011 were calculated using NHTSA’s forecasting methodology. The Path to
Target line drops from 1.42 in 2006 to 1.00 in 2011 and assumes an equal annual decrease.



Better performance measures addressing the key strategies identified would help
target resources to the areas most likely to lead to future reductions in alcohol-
related traffic fatalities. States are required 6 to include performance measures in
their annual reports and evaluations on traffic safety initiatives funded through
Federal resources. Accordingly, it is the states’ responsibility to develop the
specific measures. Our work has found that the states’ plans and reports do not
include measures showing the degree to which they carry out key strategies for
countering alcohol-impaired driving. NHTSA should prompt the states to include
in their annual plans and reports more meaningful performance measures.

For example, the Highway Safety Plans and Annual Evaluation Reports for the
10 states we reviewed did not include a measure addressing the degree to which
the states had carried out sustained enforcement. NHTSA defined this strategy as
a sobriety checkpoint or a saturation patrol, conducted weekly in areas of the state
where 60 percent or more of fatalities occur. It will be particularly important for
NHTSA to verify states’ performance regarding sustained enforcement because
SAFETEA-LU requires states to provide assurances that they will support
sustained enforcement of impaired driving laws as a condition for receiving
certain highway traffic safety grants.

Regarding effective prosecution, neither NHTSA nor 9 of the 10 states we
reviewed had established a specific gauge to measure the states’ success. The one
state, South Carolina, did include a performance-related measurement in the form
6
    Title 23, Code of Federal Regulations, Part 1200.


                                                                                                              8
of a conviction rate under grants designed to increase the number of successful
convictions.

Table 3 illustrates the potential benefits of improved performance measures
addressing the key strategies identified by state and Federal officials and includes
elements of the sustained enforcement definition NHTSA has set forth.

      Table 3. Benefits From Potential Improved Performance Measures

                        Potential Improved                Potential Benefits for NHTSA if States
    Strategy
                       Performance Measure                         Used Such Measures
 Sustained            Accomplish sustained               NHTSA could better determine the degree
 Enforcement          enforcement at a set               to which states were carrying out
                      percentage* of at-risk             SAFETEA-LU-required assurances to
                      areas in the state.                pursue this strategy.

                                                         NHTSA could better determine whether
                                                         emphasis on sustained enforcement had
                                                         an impact on alcohol-related fatalities and
                                                         injuries in at-risk areas.
 Prosecution          Achieve a set                      NHTSA could better determine whether
 and Sanctions        percentage* of                     specialized training programs for
                      successful convictions             prosecutors had an impact on conviction
                      for alcohol-impaired               rates.
                      driving offenses.
                                                         NHTSA could better determine the impact
                                                         of structural changes, such as the
                                                         establishment of courts specializing in
                                                         alcohol-impaired driving cases.
 Source: OIG
 *Percentage to be determined by NHTSA and the states.



Our ongoing work on NHTSA’s oversight of state highway safety programs has
also identified areas for improvement in performance measures, such as a
mismatch between performance measures used in the state plans and those in the
annual reports. For example, one state’s performance plan measured the number
of alcohol-related fatal crashes but its annual performance report measured the
alcohol-impaired driving rate. This makes it difficult to determine whether the
state had made progress in reaching its goal.

The need for improving performance measures in other traffic safety programs
was also found. For example, one state’s performance plan did not include a
measure for reducing the number of motorcycle fatalities. The state’s annual
report identified a general measure for reducing motorcycle fatalities but the



                                                                                                       9
measure did not identify a specific target. This is an important area given that the
number of motorcycle deaths increased nationwide by 5.1 percent in 2006.

While we recognize the autonomy granted to states to formulate performance
measures and plans tailored to their specific needs, NHTSA’s leadership in
promoting the establishment and consistent use of improved performance
measures would allow the states and NHTSA to better determine the effectiveness
of key strategies. This in turn would give both the impetus to adjust programs and
the application of resources as necessary.

Specific Actions for NHTSA To Take, In Concert With the
States, To Improve Performance Measures
In responding to our March 2007 audit, NHTSA agreed to take a number of steps
that would provide better tools for assessing the degree to which states are
carrying out key strategies to combat alcohol-impaired driving. We would
encourage the timely completion of these actions in advance of NHTSA’s
proposed 3-year time period.

NHTSA noted that carrying out our recommendations would allow it and the
states to better determine the effectiveness of key strategies and adjust the states’
Highway Safety Plans as necessary. NHTSA officials also noted challenges
posed, such as states experiencing difficulties with consistently collecting the
needed data. Despite these challenges, NHTSA agreed to take the lead in working
with states and other key stake holders, such as the Governors Highway Safety
Association, to improve performance measures for alcohol-impaired driving.
Specifically, it agreed to:

   • Work in coordination with the states to develop performance measures to
     use in carrying out the key strategies identified for countering alcohol-
     impaired driving. NHTSA committed to initiating this work in 2007 and
     completing it by 2009.

   • Provide the recommended measures to the states by March 2010.

   • Modify the checklists its regional staff used when reviewing state safety
     plans and reports, to include checks on the use of and reporting on the
     performance measures. All this would be accomplished after NHTSA
     develops the recommended measures.

NHTSA must act with a greater sense of urgency. While we support the actions
planned by NHTSA, given the importance of the issue, NHTSA should work with
its state partners more aggressively to accomplish these actions in advance of the
3-year time period scheduled. Prompt action will provide more timely information


                                                                                  10
on the degree to which states are using limited Federal resources to carry out the
key strategies identified. Moreover, these steps would benefit state programs by
providing data the states can use to promote best practices, and identify and
correct the challenges states face in implementing laws designed to reduce
alcohol-impaired driving.

Mr. Chairman, that concludes my statement. I would be pleased to address any
questions that you or other Members of the Subcommittee might have.




                                                                               11
                                                                    Appendix




                 State Alcohol-Related Driving Fatalities
                   (Calendar Years 2002 through 2006)

        State     2002         2003        2004        2005          2006
Alabama               410          414         432            445        475
Alaska                 37           37          31             37         23
Arizona               489          471         446            508        585
Arkansas              241          252         264            218        254
California          1,628        1,629       1,667          1,769      1,779
Colorado              314          252         265            252        226
Connecticut           144          137         131            130        129
Delaware               50           61          51             64         57
D.C.                   24           35          19             28         18
Florida             1,279        1,287       1,224          1,553      1,376
Georgia               533          483         536            562        604
Hawaii                 47           71          64             72         84
Idaho                  91          106          93             89        106
Illinois              653          637         613            595        594
Indiana               262          261         304            325        319
Iowa                  137          145         111            117        148
Kansas                227          199         139            142        170
Kentucky              302          277         307            311        272
Louisiana             427          410         424            439        475
Maine                  50           75          70             60         74
Maryland              276          287         286            239        268
Massachusetts         224          215         207            186        174
Michigan              494          485         431            438        440
Minnesota             256          266         191            208        183
Mississippi           335          321         352            390        375
Missouri              518          493         460            535        500
Montana               126          127         105            125        126
Nebraska              117          121          92             93         89
Nevada                165          180         154            169        186
New Hampshire          50           51          59             61         52
New Jersey            281          279         270            284        341
New Mexico            219          206         213            193        186
New York              482          540         594            580        558
North Carolina        592          528         549            562        554
North Dakota           49           53          39             59         50
Ohio                  558          466         492            519        488
Oklahoma              251          260         282            286        263
Oregon                180          207         204            177        196




                                                                          12
                                                                                                             Appendix



                             State Alcohol-Related Driving Fatalities
                               (Calendar Years 2002 through 2006)

       State                    2002                2003                2004                2005                2006
Pennsylvania                         649                 621                 616                 639                600
Rhode Island                          46                  59                  43                  48                 42
South Carolina                       549                 490                 463                 555                523
South Dakota                          92                  97                  83                  81                 80
Tennessee                            485                 443                 542                 473                509
Texas                              1,810               1,771               1,704               1,672              1,677
Utah                                  71                  47                  75                  40                 69
Vermont                               27                  29                  32                  30                 29
Virginia                             379                 367                 363                 362                379
Washington                           299                 261                 247                 302                294
West Virginia                        179                 148                 142                 129                161
Wisconsin                            360                 388                 358                 380                364
Wyoming                               67                  63                  59                  66                 80
Total                             17,531              17,108              16,898              17,590             17,602
Source: NHTSA
*Fatalities presented are based on crashes that resulted in fatalities where at least one driver, motorcycle operator,
pedestrian, or pedal cyclist involved had a BAC of .01 grams per deciliter or above.




                                                                                                                         13
The following page contains textual versions of the graphs and charts found in this
document. This page was not in the original document but has been added here to
accommodate assistive technology.
                  Effectiveness of Federal Drunk Driving Programs
                         Section 508 Compliant Presentation


Figure 1. Traffic Fatality Trends 2000-2006

 Year                          2000        2001     2002         2003          2004   2005       2006
 Traffic Fatalities           41,945       42,196   43,005       42,884     42,836    43,510     42,642
 Alcohol Related Fatalities   17,381       17,400   17,525       17,105     16,918    17,590     17,602
Source: NHTSA

Figure 2. Overall Highway Fatality Rates Will Need To Improve Faster Than
Projected To Meet the Target Rate by 2011
Note: Fatality rates are shown as the number of fatalities per 100 million vehicle-miles traveled.
 Year                          2001 2002 2003 2004 2005 2006 2007 2008 2009 2010 2011
 Actual Fatality Rate          1.51 1.51 1.48 1.44 1.46 1.42               0      0   0      0     0
 Projected Rate                  0     0       0    0        0     0      1.41 1.39 1.38 1.36 1.34
 Path to Target                  0     0       0    0        0     0      1.34 1.25 1.17 1.08 1.00

Source: Actual fatality rates are from the National Highway Traffic Safety Administration’s 2005
Transportation Safety Facts and 2006 Annual Assessment Report. Projected rates for 2007
through 2011 were calculated using the National Highway Traffic Safety Administration’s
forecasting methodology. The Path to Target line drops from 1.42 in 2006 to 1.00 in 2011 and
assumes an equal annual decrease.
